mn

OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B re © fs contact@cocklelegalbriefs,com
. és
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
es

Fax: (402) 342-4850
No, 21-57

LEVI] FRASIER,
Petitioner,
v.
CHRISTOPHER L. EVANS et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FIRST AMENDMENT SCHOLARS IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5961 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 13th day of August, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL WOTARY-State of Hebraska & Cho,
A RENEE J. GOSS deed rtatr ‘

Notary Public Affiant 44g

fy Comm. Exp. Septentser 8, 2023

 

 
